No. 20-219

JANE CUMMINGS,
Petitioner,
Vv.
PREMIER REHAB KELLER, P.L.L.C.,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Howard N. Slugh, a mem-
ber of the Supreme Court Bar, certify that the BRIEF OF AMICI CURIAE
THE CHAMBER OF COMMERCE OF THE UNITED STATES OF AMERICA,
THE AMERICAN PROPERTY CASUALTY INSURANCE ASSOCIATION,
THE AMERICAN TORT REFORM ASSOCIATION, AND THE NATIONAL
FEDERATION OF INDEPENDENT BUSINESS IN SUPPORT OF RE-
SPONDENT in the above entitled case complies with the typeface require-
ments of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnotes, and that this brief complies
with the word limitation of Supreme Court Rule 33.1(g)(xii), containing 5,834

words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).

Date: October 6, 2021 RRA

‘Howard N. Slugh

 
